FOR IMMEDIATE RELEASE                                                                    ENRD
THURSDAY, DECEMBER 18, 2003                                                      (202) 514-2007
WWW.USDOJ.GOV                                                                TDD (202) 514-1888

           CRUISE SHIP ENGINEERS INDICTED TODAY FOR MAKING
         FALSE LOG BOOKS TO CONCEAL THE DUMPING OF WASTE OIL

       WASHINGTON, D.C. - Tom Sansonetti, Assistant Attorney General for the Justice
Department’s Environment and Natural Resources Division and Marcos Daniel Jiménez, U.S.
Attorney for the Southern District of Florida, today announced that three senior cruise ship
engineers were indicted today by a federal grand jury in Miami, Florida, for their role in
concealing the overboard dumping of waste oil from the SS Norway cruise ship in false log books
designed to deceive the United States Coast Guard. The defendants, Chief Engineers Knut
Sorboe and Peter Solemdal, Senior First Engineer Aage Lokkebraten are Norwegian nationals
who were employed by Norwegian Cruise Line Limited (NCL) at the time of the offenses.

        NCL, one of the world’s largest cruise lines, previously pled guilty and paid a $1 million
criminal fine and $500,000 in community service in connection with the case. The government’s
investigation began when a former NCL engineer made allegations to the Criminal Investigation
Division of the Environmental Protection Agency. NCL learned of the tip and discovered
environmental violations during an internal audit. The cruise line’s outside auditor actually
witnessed NCL engineers aboard the SS Norway in the act of circumventing the ship’s Oil Water
Separator, a required pollution prevention device. The engineers deliberately used fresh water to
trick a machine’s oil sensor designed to detect and limit the overboard discharges. NCL reported
the criminal conduct to the government, which was already investigating the whistle-blower’s tip,
and has cooperated in the government’s investigation.

      “Today’s charges are necessary to show both companies and individuals operating and
managing ships that they may not pollute our oceans and lie to our government,” said Tom
Sansonetti, Assistant Attorney General for the Justice Department’s Environment and Natural
Resources Division.

       “Corporations do not act alone but through the acts of individuals and they must also be
held accountable. This prosecution demonstrates the continuing commitment of the United States
Attorney’s Office to aggressively prosecute environmental crimes,” said Marcos Daniel Jiménez,
U.S. Attorney for the Southern District of Florida

        Prosecutors announced today that U.S. District Court Judge Joan A. Lenard awarded the
whistle-blower $250,000 under a bounty provision established by Congress in the Act to Prevent
Pollution from Ships which allows for a reward of up to one-half of the criminal fine for those
providing information leading to conviction.
                                              -2-

       The indictment alleges that the defendants engaged in a conspiracy to use false Oil Record
Books in order to conceal overboard discharges from the SS Norway without the use of a
properly functioning Oil Water Separator and in order to obstruct Coast Guard inspections. The
Oil Record Book is a required pollution record that is regularly inspected and relied upon by the
Coast Guard.

        The investigation was conducted by the United States Environmental Protection Agency,
Criminal Investigation Division; Coast Guard Investigative Service; United States Department of
Transportation, Office of Inspector General; Federal Bureau of Investigation; Miami-Dade Police
Department Environmental Investigations Unit; and the Florida Department of Environmental
Protection Division of Law Enforcement. The case is being prosecuted by the U.S. Attorney’s
Office for the Southern District of Florida and the Environmental Crimes Section of the U.S.
Department of Justice with the assistance of the EPA Regional Criminal Enforcement Counsel.

                                              ###

03-709
